         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report

The Department of Energy's July
2013 Cyber Security Breach




DOE/IG-0900                    December 2013
                                 Department of Energy
                                   Washington, DC 20585

                                       December 6, 2013

MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Review of the "Department of Energy's July
                         2013 Cyber Security Breach"

BACKGROUND

To facilitate its administrative and operational needs, the Department of Energy maintains a
substantial amount of personally identifiable information (PII). The Department's Management
Information System (MIS) provides a gateway for users to access a system known as the DOE
Employee Data Repository (DOEInfo) database. That system was implemented in 1994, and
over time has become the central repository for information on the Department's current and
former employees, dependents and contractors. Among other data elements, information stored
in DOEInfo included name, address, Social Security number, date and place of birth, and
banking information. In addition, Homeland Security Presidential Directive 12 badge and
position sensitivity information, as well as security questions and answers necessary to request
username and password resets, were stored in the database.

Over the past several years, MIS has been involved in no less than three cyber security breaches.
According to Department officials, neither of the first two incidents, one in May 2011, and the
second in January 2012, appeared to result in the loss of personal information. In July 2013,
however, hackers exploited a software vulnerability to gain access to MIS and exfiltrated
personal information from DOEInfo.

Because of the importance of ensuring the security of the Department's systems and sensitive
information and at the request of the Chief Information Officer, we commenced a special review
into the circumstances surrounding the MIS/DOEInfo breach. During our review, we conducted
more than 35 interviews with Federal officials and contractor personnel from most of the
Department's programs and staff offices. We also reviewed supporting information pertinent to
MIS and DOEInfo and the events surrounding the breach.

RESULTS OF REVIEW

In spite of a number of early warning signs that certain personnel-related information systems
were at risk, the Department had not taken action necessary to protect the PII of a large number
of its past and present employees, their dependents and many contractors. We concluded that the
July 2013 incident resulted in the exfiltration of a variety of PII on over 104,000 individuals.
                                                 2


Our review identified a number of technical and management issues that contributed to an
environment in which this breach was possible. Compliance and technical problems included:

   •   The frequent use of complete Social Security numbers as identifiers, a practice contrary
       to Federal guidance. While not a direct contributor to the July 2013 breach, officials also
       failed to encrypt PII stored on the breached system, a practice that ignored a key industry
       and Federal best practice.

   •   Permitting direct internet access to a highly sensitive system without adequate security
       controls. Interestingly, routine internet access to e-mail required greater security than did
       access to the vast amounts of PII contained in DOEInfo.

   •   Lack of assurance that required security planning and testing activities were conducted.
       In particular, we determined that MIS and DOEInfo had not been securely integrated with
       one another. The Office of the Chief Information Officer (OCIO) also had not performed
       the required system certification testing or provided MIS an authorization to operate.

   •   Permitting systems to operate even though they were known to have critical and/or high-
       risk security vulnerabilities. The Department had not taken appropriate action to
       remediate known vulnerabilities on its systems either through patching, system
       enhancements or upgrades.

   •   Failure to assign the appropriate level of urgency to replacing end-of-life systems.
       Although core support for the version of the compromised application upon which MIS
       was built ended in July 2012, the Department did not purchase updated software until
       March 2013 – 8 months after support for the outdated application ended.

We also identified numerous contributing factors related to inadequate management processes.
These issues created an environment in which the cyber security weaknesses we observed could
go undetected and/or uncorrected. Specifically, we discovered:

   •   Competing priorities between mission-related work and cyber security that resulted in
       continued operation of systems even though they were known to have high-risk
       vulnerabilities. In that respect, officials told us that they lacked the authority to impose
       restrictions on system operation or take other corrective measures when known security
       vulnerabilities were not addressed. We could not determine with certainty whether the
       lack of authority, in all instances, was real or only perceived.

   •   Unclear lines of responsibility between and within program and staff offices. As it
       related to the July 2013 breach, officials from the Office of the Chief Financial Officer
       (OCFO) told us that they believed that the OCIO was responsible for patching
       vulnerabilities in the breached system. However, OCIO officials told us just the opposite,
       that the OCFO was responsible for that task.

   •   Lack of awareness by responsible officials regarding complete operating environment for
       the vulnerable database. We learned that since its deployment in 1994, over 30 separate
                                                3


       systems had become attached to DOEInfo. At least two of the interconnected systems
       were no longer being used, one of which had non-sensitive data taken from it during the
       breach.

   •   Ineffective communications and coordination among responsible officials. OCIO
       officials told us that various system owners they supported prohibited them from making
       security updates to applications in a timely manner because doing so would make it
       harder for employees to do their work. Conversely, program officials indicated that they
       directed security related issues to the OCIO and never received responses. We found that
       communication issues within the OCIO likely contributed to the recent breach.
       Specifically, system anomalies discovered by an application developer and reported to
       the OCIO prior to the breach were not fully investigated prior to being corrected. In this
       case, we question the thoroughness of Department's analysis of the reported anomalies.

While we did not identify a single point of failure that led to the MIS/DOEInfo breach, the
combination of the technical and managerial problems we observed set the stage for individuals
with malicious intent to access the system with what appeared to be relative ease. The attackers
in this case were able to use exploits commonly available on the internet to gain unfettered
access to the relevant systems and exfiltrate large amounts of data – information that could be
used to damage the financial and personal interests of many individuals. As noted, in many past
Office of Inspector General Evaluation Reports completed pursuant to the Federal Information
Security Management Act of 2002, weaknesses identical to those exploited in this case hold the
potential for significant harm to the Department.

We also found that the extent of PII stolen was much more extensive than that originally reported
by the Department. Alarmingly, we noted as many as 150,000 unique 9-digit records (possible
Social Security numbers) in the forensic data gathered after the event. In response to our
analysis and briefing to the Deputy Secretary in September 2013, the Department's Chief
Information Officer and Acting Chief Financial Officer stated that they believed many of the
records included in the forensic data represented false positives, but estimated the number of
individuals impacted to be over 104,000. Breached information also exceeded just the names,
dates of birth and Social Security numbers initially reported by the Department. In particular,
the forensic data we analyzed also revealed that select bank account numbers, places of birth,
education, security questions and answers, and disabilities were also included in the loss of
information. Department officials told us that they examined the evidence we provided,
validated it, and were in the process of notifying all impacted individuals that their PII had been
compromised.

                                 Financial and Program Impacts

In addition to the obvious risk to individuals whose PII was exposed, the financial consequences
to the Department to recover from this breach of data security will be substantial. The OCIO
noted that, as of October 2013, the Department estimated it would spend approximately
$1.6 million for credit monitoring and labor costs associated with establishing a call center
through which affected individuals could obtain additional information on the breach. We noted
that additional costs may be necessary to support continued call center operations. In addition,
                                                 4


the Department had incurred significant costs associated with the recovery and lost productivity
– funds that could have been better spent supporting the Department's core missions. In
particular, in October 2013, the Secretary authorized the use of up to 4 hours of administrative
leave to all affected Federal employees to take action to correct issues associated with the event,
an action we estimate could cost the Department an additional $2.1 million in lost productivity.

Morale and reputational issues associated with the breach also have an adverse impact upon the
Department. According to officials we spoke with, various employees received notification that
their PII had been compromised in both this and an earlier unrelated breach and noted that
employee complaints demonstrated a loss of confidence in Departmental cyber security. For
those reasons, we believe that the Department needs to redouble its effort to improve its
relationships with the affected individuals to ensure that notifications are made as quickly as
possible.

                                           Path Forward

Without improvements to the Department's information technology and management control
environment in areas such as the use of Social Security numbers, internet accessibility,
vulnerability management and continuous monitoring, the Department's systems containing
sensitive information, including PII, remain at a higher than necessary risk of unauthorized
disclosure. The Department moved to secure the compromised system subsequent to the
July 2013 breach. However, we noted that it had identified other high-risk systems that could
also be at risk of future compromise. These applications contain PII and protected health
information, the loss of which could affect public safety and health.

The Department can begin to rebuild trust by revamping its Headquarters' cyber security
program and control environment, enhancing communications and coordination in a number of
areas related to cyber security and safeguarding PII, and moving away from the "stove piping"
approach to managing information systems and data. To help address these issues, we made a
series of recommendations designed to improve security over PII maintained by the Department.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had taken and/or
initiated corrective actions. Management's comments and our response are summarized and
more fully discussed in the body of the report. Management's formal comments are included in
Appendix 4.

Attachment

cc:   Deputy Secretary
      Acting Under Secretary for Nuclear Security
      Acting Under Secretary for Management and Performance
      Acting Under Secretary for Science and Energy
      Chief of Staff
      Chief Information Officer
      Acting Chief Financial Officer
      Chief Health, Safety and Security Office
SPECIAL REPORT ON THE DEPARTMENT OF ENERGY'S JULY 2013
CYBER SECURITY BREACH


TABLE OF
CONTENTS

Technical Issues Contributing to the Cyber Security Breach

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................9

Management Reaction and Auditor Comments .............................................................................10

Appendices

1. Timeline of Events Surrounding the Management Information System Security Breach.......11

2. Objective, Scope and Methodology .........................................................................................12

3. Prior Reports ............................................................................................................................13

4. Management Comments ..........................................................................................................15
THE DEPARTMENT OF ENERGY'S JULY 2013 CYBER SECURITY
BREACH

Technical Issues Contributing to the Cyber Security Breach

The Department of Energy (Department) assessed the Management Information System (MIS)
and DOE Employee Data Repository (DOEInfo) database as moderate-risk systems according to
the criteria set forth in Federal Information Processing Standard 199 established by the National
Institute of Standards and Technology (NIST). The risk rating is used to determine the effect to
the agency should the system's confidentiality, integrity or availability be compromised.
Although NIST required certain controls to be implemented to protect the systems, our review
found that a number of these controls had not been implemented or processes were not in place
to ensure that controls were operating effectively.

                          Use of Unencrypted Social Security Numbers

The Department inappropriately utilized Social Security numbers as an identifier in DOEInfo
despite an Office of Management and Budget requirement that the use of Social Security
numbers be eliminated to the extent possible by November 2008. Officials told us that the
protection of personally identifiable information (PII) in several of the Department's systems had
been considered as part of its response to the Office of Management and Budget requirement.
The officials indicated, however, that DOEInfo was not one of those systems considered even
though it was the Department's primary repository for storing PII. In addition, the database had
not been constructed in a manner in which Social Security numbers were restricted to a
minimum number of tables or otherwise obfuscated in the system. In particular, we noted that
354 of the 543 (65 percent) tables exfiltrated from the database contained Social Security
numbers. Officials informed us that, since 2006, almost 70 tables had been added to the database
using an identifier other than an individual's Social Security number. However, no efforts had
been undertaken to eliminate the unnecessary use of Social Security numbers in the existing
DOEInfo database tables even though the requirement to do so was over 5 years old. In
preliminary comments on our report, the Office of the Chief Financial Officer (OCFO) stated
that it had initiated actions following the July 2013 breach to reduce the number of Social
Security numbers in the database, resulting in the removal of a number of tables.

Even though Social Security numbers were used, the sensitive data maintained in the DOEInfo
database was generally not encrypted. Specifically, our analysis identified that none of the 354
tables containing Social Security numbers had encryption enabled. The encryption of data at rest
is an industry best practice, which NIST noted should be considered as part of a defense-in-depth
strategy to maintain the confidentiality and integrity of information. Although we recognize that
encrypting data at rest may result in some performance issues, given the sensitivity of the
information, we believe that encryption technologies should have been considered. We
previously identified issues related to encrypting data at rest at various programs and sites in our
report on Protection of the Department of Energy's Unclassified Sensitive Electronic Information
(DOE/IG-0818, August 2009). In preliminary comments on our report, OCFO officials noted
that encryption would not have protected the data in DOEInfo from the type of attack that
occurred in July 2013. While this may be true, we continue to believe that encryption within the
system could protect the Department's PII from a number of other types of attacks and is a
worthwhile control implemented by other industry organizations.


Page 1                                                                          Details of Finding
                                      Internet Accessibility

Access to the information within the DOEInfo database through the MIS gateway did not require
the use of enhanced authentication mechanisms, such as two-factor authentication or a virtual
private network. The use of two-factor authentication would have required a valid user to
provide two means of identity proofing – such as a password, token or biometric signature –
prior to accessing the system from the internet. Instead, only a user name and password were
required to access MIS from any location with an internet connection. While we understand the
need for individuals outside the Department's internal network to access certain information in
DOEInfo, following a breach of MIS in January 2012, the OCFO's Director of Corporate
Information Systems expressed concern that the system was directly accessible from the internet
to various officials within the Office of the Chief Information Officer (OCIO), including the
Chief Operating Officer, Chief Architect and former Chief Information Security Officer. In
addition, during our review, OCIO and OCFO officials questioned why two-factor authentication
had not been considered for MIS. We noted that, despite the concerns that had been raised,
removal of MIS from the internet had not been given sufficient consideration.

                                  Security Planning and Testing

We identified weaknesses related to system security planning and testing for both MIS and
DOEInfo. For example, we noted that MIS and DOEInfo had not been securely integrated with
one another. Specifically, the systems were owned by two different groups within the
Department – the OCIO and OCFO respectively – and thus not included within the same
authority to operate. While NIST noted that such an approach can provide a more targeted
application of security controls within each system, we found that the Department's treatment did
not relieve it of the responsibility to ensure that MIS and DOEInfo were integrated in a secure
and functional manner. In addition, our review noted that, despite having been operable for
almost 10 years, no security planning documentation had been completed for MIS. In particular,
a security plan that provided details as to how required controls were implemented and/or
inherited from other systems or the underlying infrastructure had been drafted in February 2013,
but had not been finalized at the time of our review.

Despite being operational since 2004, the OCIO had not performed the required system
certification testing or provided MIS an authorization to operate. As such, the system had been
in operation for nearly 10 years without a thorough review of its security controls, including
many of the controls that we determined were deficient, and the risks of operating the system in
its untested state had not been identified. Although there was a significant gap in security,
consideration had not been given to removing the system from the operating environment until
such a time that controls were tested and risks appropriately addressed. As required by NIST,
software applications such as MIS should be included in the risk management process because
application security is critical to the overall security of the system. In January 2013, the OCIO
acknowledged ownership of MIS and began efforts to appropriately authorize it for operation.

However, those efforts had not been completed at the time of the breach and remained
incomplete at the time of our review. We also noted that MIS continued to operate on the
Department's internal network even though security testing recently completed (testing report
dated August 2013) by the OCIO identified nearly 80 required controls that were not fully

Page 2                                                                         Details of Finding
implemented. Documentation provided by program officials did not include support for
mitigating controls to address these weaknesses and recommended that an authority to operate
not be approved. At the time our report was issued, OCIO officials had not rendered a decision
regarding authority for system operation.

                     Vulnerability Management and Continuous Monitoring

We found that the Department had not taken appropriate action to remediate known
vulnerabilities in its systems either through patches, system enhancements or upgrades. Critical
security vulnerabilities in certain software supporting the MIS application had not been patched
or otherwise hardened for a number of years. Specifically, an operating system utility and a
third-party development application that were installed on the MIS server had not been updated
since early 2011. In addition, the vulnerability exploited by the attacker was specifically
identified by the vendor in January 2013. As a system within the Headquarters environment, the
OCIO was responsible for maintaining and patching the underlying infrastructure and the
operating system on which MIS and DOEInfo operated. Further, although an upgrade for the
application upon which MIS was built had been purchased jointly by the OCIO and OCFO in
March 2013, it was not installed until after the breach occurred. The upgrade had been in the test
environment since June 2013, but officials commented that it had not been applied to the
operating environment because of functionality issues with an interconnected system. For the
past 9 years, the Department's ongoing struggles with vulnerability management have been noted
in our annual reports on the Department's unclassified cyber security program issued in
accordance with the Federal Information Security Management Act of 2002.

The vulnerability management weaknesses identified above occurred because the OCIO had not
implemented a robust continuous monitoring process over the operating environment that could
have permitted identification and remediation of vulnerabilities in a timely manner. Although
some level of scanning was conducted on the MIS system, it did not fully identify the
vulnerabilities related to the compromised web application. Specifically, scans of MIS
conducted by the OCIO in March and April 2013 identified the application installed on the
server and several associated vulnerabilities, but action was never taken to mitigate the
discovered problems. In addition, we noted that a more robust scanning capability, including the
use of authenticated scanning, would have identified additional application-specific
vulnerabilities within MIS. However, officials with the OCIO's Energy Information Technology
Services group informed us that authenticated scanning had been attempted on MIS but failed for
a variety of technical reasons. The Department's Office of Health, Safety and Security officials
told us that they had been asked to complete an authenticated scan of the MIS and DOEInfo
systems in support of the ongoing MIS certification process, but that the OCFO had indicated
that DOEInfo did not need to be included in this effort.

Based on the results of our review, we continue to believe that such scanning, if performed
simultaneously on both systems, could have made system owners in both the OCIO and OCFO
aware of the level of vulnerabilities present on MIS and the potential effect of those on the
information in DOEInfo. In preliminary comments to our report, OCFO officials indicated that
scanning of both systems had been scheduled but not yet performed. As noted by NIST,
agencies should establish effective continuous monitoring programs that include configuration
management and control processes and assessments of security controls within and inherited by

Page 3                                                                        Details of Finding
each system. NIST also explained that justifications for not implementing patches should be
documented, communicated and approved by appropriate management and warned that the risk
of delaying remediation must be weighed carefully, considering the threat level, risk of
compromise and consequences of compromise.

                                     Lifecycle Management

The Department did not assign the appropriate level of urgency to replacing end-of-life systems.
Specifically, core support for the version of the compromised application upon which MIS was
built ended in July 2012, and the Department failed to purchase the extended support that would
have provided limited coverage through July 2014. Although efforts were underway at the time
of the breach to upgrade to a newer version of the application, the efforts had been slowed by
technical difficulties with an interconnected application. During our research, we noted that
since the time the application had been installed for MIS, an updated version of the same
application had been introduced and withdrawn from the market and was now nearing the end of
its core support period. Officials from the OCFO stated that a decision to upgrade the system
had not been made until December 2012, because it had not reached the end of its useful life
even though it was two iterations behind the current version. While we acknowledge the need to
ensure responsible use of taxpayer funds, we question the decision not to upgrade to a less
vulnerable version of the application sooner or give adequate consideration to how susceptible
the system was to being breached and the criticality of information it contained.

In preliminary comments on our report, OCFO officials noted that the end-of-life for the
compromised application was July 2014. However, our review determined that the software's
core support period expired in July 2012, and an OCFO official confirmed that the extended
support option had not been purchased. Under a risk-based approach to cyber security, we
believe the Department should have considered the risks associated with continuing to operate an
internet accessible system granting access to a large database of PII on an unsupported platform.
Further, we believe that the Department should have considered costs associated with mitigating
a system breach when considering the timing of lifecycle management activities for such
systems. We noted the Department procured the updated version in March 2013 for
approximately $4,200. That amount coupled with labor costs associated with testing and
installing the upgrade were significantly less than the cost to mitigate the affected system, notify
affected individuals of the compromise of PII and rebuild the Department's reputation.

Contributing Factors to the System Breach and Subsequent Loss of PII

We identified a number of contributing factors that created an environment that permitted cyber
security weaknesses to go undetected and/or uncorrected. In particular, we determined that
issues related to competing priorities, unclear lines of responsibility, lack of urgency and
awareness over cyber security, inadequate authority of the OCIO over Federal systems at
Headquarters, and ineffective communication and cooperation among programs contributed to
the MIS/DOEInfo security breach.




Page 4                                                                          Details of Finding
                                        Competing Priorities

Competing priorities within and between the Department's programs frequently resulted in
decisions being made that increased the risk of intrusion to the Department's systems. For
example, although the OCIO had requested permission from the OCFO to perform authenticated
scans of DOEInfo, officials from the OCFO's Office of Corporate Information Systems
commented that they had concerns related to degraded performance and what they believed to be
unnecessary system access. This precluded testing from occurring in a timely manner and
outweighed the necessity to review the system to ensure that sensitive data, including PII, was
properly secure. In preliminary comments on our report, OCFO officials informed us that an
alternative testing process had been suggested. However, this testing still had not been
completed by the OCIO at the conclusion of our fieldwork, nearly 3 months after MIS was
placed back into operation following the breach. In addition, we noted that competing priorities
may have impacted the Department's ability to complete the MIS upgrade in a timely manner.
For example, the upgrade was significantly delayed by functionality issues between MIS and an
underlying application. Because of this, MIS was allowed to operate in a vulnerable state until it
was ultimately removed from the network following the breach.

We also determined that the Department did not act with sufficient urgency when determining
how many individuals were impacted by the breach and notifying them accordingly.
Specifically, the Department's Chief Information Officer was also the Senior Agency Official for
Privacy, which may have hindered the response to the security breach. For example, employees
within the OCIO were forced to balance the need to respond to and recover from the incident
with the need to analyze forensic data so affected individuals could be identified and notified in a
timely manner. We were told by OCIO officials that the organization responsible for incident
response and recovery had also provided initial forensic information to the OCFO for analysis
and identification of affected individuals. However, at some point, the decision was made by a
senior OCIO official to focus solely on incident recovery and perform no additional work on
providing information to the OCFO for analysis. As a result, conflicting priorities may have
resulted in a less than fully effective and timely response in notifying individuals impacted by
the breach. In response to our ongoing criminal investigation, the Department initiated
additional efforts at our request to ensure that all affected individuals were identified. As a result
of the Office of Inspector General's efforts, the Department identified more than 50,000
additional individuals impacted by the security breach but had not completed notifications to the
affected individuals at the time of our review.

                                      Lines of Responsibility

Issues related to vulnerability management and security testing were exacerbated by blurred lines
of responsibility for application patching and maintenance of MIS. In particular, even though the
system had been in operation for many years, there was apparent confusion as to which
organization was responsible for ensuring that proper security was maintained. Although the
OCIO had recently acknowledged ownership of MIS and began the security authorization
process, it had not fully accepted all of its responsibilities for the system, such as patch
management. To that end, we noted that the specific organizational responsibilities of shared
support staff had not been documented – leading to the confusion we observed regarding work
performed. We believe such actions created an atmosphere in which both the OCIO and OCFO

Page 5                                                                           Details of Finding
perceived the other was responsible for addressing system vulnerabilities, with no action being
taken by either organization. To its credit, prior to the issuance of our report, the OCIO took
action to identify and document the system-level responsibilities of support staff shared with the
OCFO.

We also found that the Memorandum of Understanding used for systems hosted by the OCIO
was in a standard format and was not tailored to each system for which it was executed. OCIO
officials told us that they provided server maintenance and operating system patching, while
system owners, such as the OCFO, were responsible for patching any applications that were
installed on the servers. However, many program officials told us that they were unsure where
their responsibilities began for systems hosted by the OCIO. We also noted that the
Memorandum of Understanding did not include any corrective measures that could be taken by
either party for noncompliance with the requirements of the document. Such alternatives could
have allowed the OCIO to block or remove unpatched or otherwise insecure systems, such as
MIS, from the network until they were properly secured. In preliminary comments to our report,
OCFO officials noted that such actions did not apply to MIS because it was an OCIO system.
However, we noted that following the breach the OCFO rebuilt the system and approached the
OCIO to obtain agreement to return it to the operating environment. The OCIO concurred with
the understanding that the system be placed on the Department's internal network. We believe
that such actions contributed to the confusion we observed surrounding the responsibilities for
MIS.

                                     Urgency and Awareness

We determined that a lack of urgency regarding cyber security may have contributed to the
MIS/DOEInfo security breach. For example, in December 2012, the MIS system was identified
by the OCFO's Office of Corporate Information Systems as having numerous vulnerabilities and
was in need of an upgrade to a newer more secure version. However, the OCFO and OCIO did
not ensure the existing application upon which MIS was built was adequately secured while the
upgrade was in the process of being implemented, leaving the system with numerous
vulnerabilities, one of which was exploited during the breach. There was also confusion between
the OCIO and OCFO regarding management of MIS; yet, there was no urgency to solidify
system responsibilities and develop a path forward until January 2013, when the OCIO
acknowledged its duties as system owner. Instead, both groups assumed it was the other's
responsibility, leaving the system vulnerable and inappropriately managed.

Furthermore, the DOEInfo database had become increasingly complex – adding more than 30
interconnections with other applications since it was developed in 1994. Department officials,
however, had not maintained an awareness of the operating environment. After the recent
breach, the OCIO and OCFO were working together to identify and map out the full scope of the
system, including connectivity to other systems. In comments on our preliminary report, OCFO
officials stated that they were aware of and had properly managed all system interconnections to
DOEInfo. However, our review identified at least two interconnected systems that were no
longer being used, one of which had non-sensitive data taken from it during the breach. One
senior OCIO official even commented that he was unaware the system existed, let alone that it




Page 6                                                                         Details of Finding
was the central repository for the Department's PII. Had the Department maintained a clear
understanding of its operating environment, the need for enhanced security controls could have
been identified and implemented, as appropriate.

                                Authority over System Operations

The Federal Information Security Management Act of 2002 requires that the Chief Information
Officer have direct authority and responsibility to ensure that the Department's information
security policies, procedures and practices are adequate. However, because of certain
delegations of authority, the Chief Information Officer was required to coordinate those efforts
with the Senior Secretarial Officers. As a result, the authority of the Chief Information Officer
had become limited due to the emphasis placed on program and staff office requirements rather
than ensuring the security of the Department's information systems. Specifically, we noted
during our review that OCIO officials had not been fully empowered to take systems that posed
significant risk to the Department off the Headquarters network. We confirmed that no such
authority existed despite the increased complexity of the Department's Headquarters network and
reliability on the internet to accomplish business needs. Further, several individuals informed us
that past management practices had been to not disrupt the business and mission requirements of
the programs and staff offices that had systems hosted by the OCIO.

We believe the lack of a centralized authority over Federal systems at Headquarters to act in case
of an emergent need adversely impacts the Department's ability to effectively minimize the risk
of unauthorized access to and disclosure of sensitive information. We recognize the need to
appropriately balance mission requirements against cyber security measures and to ensure
operability for authorized access. However, we believe that an appropriate risk-based approach
must consider the benefits provided to a select few against the risks to all of such a significant
loss of sensitive information. Rather, outdated and unsecured systems like MIS were allowed to
remain on the network even though the OCIO knew that continued operation significantly
increased the risk that the Department's systems and information could be compromised.
Without a defined, centralized authority to act in an emergent situation and resolve disputes, the
Department may not be able to minimize the effect of future cyber security breaches.

                                Communication and Coordination

The Chief Information Officer and Senior Program officials are responsible for coordinating
responsibilities to provide information security for systems and data that support the assets under
their control. However, a lack of communication and cooperation within and between programs
contributed to a culture wherein cyber security became secondary to ease of system access and
completion of mission work. Several OCIO officials we met with during our review commented
that they were frequently directed by programs to not implement tools or controls on systems
because it would affect performance or make it harder for employees to do their work. We were
also told that several of the Department's programs would not provide information to the Chief
Information Officer about systems and risks even though that individual is ultimately responsible
for risk acceptance authority over Federal systems at Headquarters. As such, the Department
could not attest to the level of risk its systems face on a daily basis. Notably, following the July
2013 breach, the OCFO was one of only two programs/offices to provide the OCIO with
requested information pertaining to systems containing PII.

Page 7                                                                          Details of Finding
Conversely, program officials stated that they frequently communicated information to the
OCIO, as in the case of DOEInfo log anomalies and a drive space issue on the MIS server
(Appendix 1), but would not receive a response as to whether there was a need for concern.
Specifically, we noted that the OCIO had alleviated the space issue by deleting what it
determined to be a data dump file created by the Department's forensic tool. However, the OCIO
did not investigate whether that file was the reason for the loss of space prior to deleting it.
Rather, it identified the file as the largest on the server and the quickest way to remediate the
immediate issue and allow normal operations to resume. OCFO officials noted that the MIS
server generally had more than sufficient disk space. As such, we questioned why the loss of
space on a server that had never experienced a similar issue was not of higher concern. In short,
we have reason to believe that the loss of space may have been the result of the attacker
attempting to exfiltrate information and, with the proper analysis, communications and
coordination, this could have been confirmed as suspicious activity, and the eventual loss of data
may have been prevented.

Furthermore, a privacy official within the OCIO noted the privacy response for an unrelated
cyber incident in January 2013, was confusing, frustrating and disorganized. Although a senior
OCIO official stated at the time that a turnkey response plan would be established for future
incidents, it was not developed and resulted in a similar confusing, frustrating and disorganized
response to the recent breach. We believe strong leadership, a concerted effort, and willingness
to move past the event to revamp the cyber security program and control environment could
begin to rebuild trust throughout the Department. Certainly, the culture within the Department
that minimized communication and coordination was not developed over a short period of time
and, as such, will not be fixed overnight. However, the stovepipe approach to managing
information systems and data has proven, as with the MIS breach, that continued failure to
communicate and coordinate efforts could lead to significant negative mission impact and
unauthorized loss of sensitive information.

Impact and Path Forward

Without improvements to the Department's information technology and management control
environment in areas such as the use of Social Security numbers, internet accessibility,
vulnerability management and continuous monitoring, the Department will continue to place
systems containing sensitive information, including PII, at a higher than necessary risk of
unauthorized disclosure. For example, we noted that the Department had identified additional
high-risk systems containing PII that could be at risk of future compromise. These applications
contained PII and protected health information, the loss of which could affect public safety and
health especially to the Department's workforce. Although precautions to secure the
compromised system had been taken subsequent to the breach, we believe immediate additional
efforts are needed to strengthen the Department's cyber security posture, including reviewing the
additional high-risk systems and taking necessary action to minimize the likelihood of future
events.

Absent better protections, the Department could also continue to absorb the financial
consequences that are related to recovering from breaches of data security. Alarmingly, we
noted as many as 150,000 unique 9-digit records in the forensic data gathered after the event.
Therefore, we believed the number of affected individuals significantly exceeded the 53,000

Page 8                                                                         Details of Finding
reported by the Department prior to our review. Having determined the potential for nearly three
times the number of affected individuals during our review, we communicated our concern that
the Department had not performed its due diligence in identifying all affected individuals and
ensuring they were notified in a timely manner. In response to our analysis and briefing to the
Deputy Secretary in September 2013, the Department's Chief Information Officer and Acting
Chief Financial Officer stated that they believed many of the records included in the forensic
data represented false positives, but estimated the number of individuals impacted to be over
104,000. In October 2013, the Department communicated the revised number of 104,179
affected individuals to its employees. The OCIO noted that, as of October 2013, the Department
estimated it would spend approximately $1.6 million for credit monitoring and labor costs
associated with establishing a call center through which affected individuals could obtain
additional information on the breach. We noted that additional costs may be necessary to
support continued call center operations. In addition, the Department had incurred significant
costs associated with the recovery and lost productivity – funds that could have been better spent
supporting the Department's core missions. For instance, in October 2013, the Secretary
authorized the use of up to 4 hours of administrative leave to all affected Federal employees to
take action to correct issues associated with the event, an action we estimated could cost the
Department an additional $2.1 million in lost productivity.

We also found that breached information exceeded just names, dates of birth and Social Security
numbers as initially reported by the Department. In particular, we noted through investigation or
discussions with officials that select bank account numbers, places of birth, education, security
questions and answers, and disabilities were also included in the loss of information. According
to officials we spoke with, several employees had received notification that their PII had been
compromised in both this and an earlier unrelated breach and noted that employee complaints
demonstrated a loss of confidence in the Department's management. As the Department works
to improve its relationships with the affected individuals, it must make an earnest attempt to
ensure that notifications are made as quickly as possible.

RECOMMENDATIONS

Given the unprecedented extent of this security event and loss of PII, prompt and effective
corrective actions are essential. In that respect, in addition to the actions recently initiated, we
recommend that the Department's Chief Information Officer and Acting Chief Financial Officer,
in coordination with the Acting Under Secretary for Nuclear Security, Acting Under Secretary
for Science and Energy and Acting Under Secretary for Management and Performance:

   1. Complete additional forensics reviews, as appropriate, to identify all types of data
      compromised and notify affected employees, dependents and contractors of compromised
      data in a timely manner in accordance with appropriate laws and regulations;

   2. Identify all externally facing systems, determine if the continued external access is
      necessary, and remove access if not deemed essential;

   3. Implement an effective continuous monitoring program, to include the performance of
      periodic in-depth authenticated reviews of each system, especially those that are
      externally facing;

Page 9                                                                        Recommendations
   4. Reconfigure the DOEInfo database tables to remove unnecessary or outdated
      information, remove Social Security numbers where possible, and protect those
      remaining Social Security numbers through the use of encryption or other security
      protocols as appropriate and in conjunction with Federal requirements;

   5. Clarify the authorities and responsibilities of the OCFO and the OCIO as they pertain to
      the ownership and management of the impacted systems;

   6. Develop an effective risk management approach that properly identifies weaknesses and
      costs of mitigation to allow senior management officials to effectively apply limited
      resources to minimize future events;

   7. Develop a process and central authority responsible for shutting down compromised or
      significantly vulnerable systems, at least on a temporary basis, to ensure minimal
      disclosure of national security, personally identifiable and other sensitive information;
      and

   8. Prepare a lessons learned report that can be shared across the complex.

MANAGEMENT REACTION

Management concurred with each of the report's recommendations and indicated that corrective
actions had been taken or were planned to address the issues identified during our review. For
instance, management commented that it had completed forensic reviews related to the breach
and had notified nearly all of the individuals whose information had been compromised. In
addition, management stated that it will remove Social Security numbers from DOEInfo, where
possible, and protect the remaining numbers through the use of encryption or other security
protocols. Management also committed to enhancing its continuous monitoring process,
including conducting vulnerability assessments of DOEInfo and its connected services and
applications.

AUDITOR COMMENTS

Management's comments and planned corrective actions were responsive to our recommendations.
Management's comments are included in Appendix 4.




Page 10                                      Management Reaction and Auditor Comments
Appendix 1

  TIMELINE OF EVENTS SURROUNDING THE MANAGEMENT INFORMATION
                     SYSTEM SECURITY BREACH

Based on interviews with Department of Energy (Department) and contractor officials and
reviews of supporting documentation, we established a timeline of events related to the recent
breach of the Management Information System (MIS) and DOE Employee Data Repository
(DOEInfo) database. In particular, we found:

   •   July 2, 2013: An application developer noticed an anomaly in the DOEInfo system logs
       while performing duties for the Office of the Chief Financial Officer (OCFO) related to
       investigating an unrelated programming error. The responsible group within the Office
       of the Chief Information Officer's (OCIO) Energy Information Technology Services
       (EITS) organization was notified so it could investigate further, because it has
       responsibility for the servers on which MIS and DOEInfo reside. The determination was
       made by an OCIO official that someone was repeatedly attempting to access the server
       running MIS. The developer told us that he did not receive any feedback on this issue
       from EITS.

   •   July 24, 2013: The MIS server was breached according to forensic analysis that was
       performed following the event.

   •   July 25, 2013: The OCFO application developer noticed that the MIS server had run out
       of drive space and was not responding to normal data requests. Officials from that office
       stated that this was an anomaly as the system generally had an ample amount of memory
       available. Again, EITS was notified. In this instance, no investigation was performed to
       determine the reason for the loss of space. Rather, the largest unnecessary data file on the
       server was deleted to allow the system to return to normal operation.

   •   July 26, 2013: Data was successfully exfiltrated from the DOEInfo database through
       MIS when hackers were able to elevate their privileges and run more than 600 queries
       against the system in a role that provided unlimited access to the database and other files
       on the MIS server.

   •   August 8, 2013: The data breach was identified, and MIS was taken offline.

   •   August 18, 2013: MIS was reintroduced to the Department's internal network after both
       the virtual machine and web application were rebuilt using a clean operating system and
       updated version of the application software.




Page 11                           Timeline of Events Surrounding the MIS Security Breach
Appendix 2

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine the circumstances that led to the July 2013 cyber security breach at the Department
of Energy (Department) Headquarters.

SCOPE

The review was performed between September and December 2013, at the Department's
Headquarters facilities in Washington, DC, and Germantown, Maryland.

METHODOLOGY

To accomplish our objective, we:

   •   Conducted over 35 interviews with Federal and contractor officials from the Offices of
       the Chief Information Officer and the Chief Financial Officer as well as other program
       and staff offices;

   •   Reviewed Federal laws and regulations related to controls over information technology
       security and privacy such as the Federal Information Security Management Act of 2002,
       Office of Management and Budget Memoranda and National Institute of Standards and
       Technology standards and guidance;

   •   Evaluated supporting documentation related to cyber security planning, development and
       management of the Department's Management Information System and the DOE
       Employee Data Repository database;

   •   Analyzed forensic data from the security breach to include data and database tables
       exfiltrated;

   •   Reviewed the relationships among the Office of the Chief Information Officer and
       Headquarters programs and staff offices; and

   •   Reviewed prior reports issued by the Office of Inspector General and the U.S.
       Government Accountability Office.

We believe that the evidence obtained provided a reasonable basis for our findings and
conclusions based on our objective. Because our review was limited, it would not have
necessarily disclosed all internal control deficiencies that may have existed at the time of our
review. We did not rely on computer-processed data to satisfy our objective. We held an exit
conference with the Chief Information Officer on December 6, 2013.




Page 12                                                    Objective, Scope and Methodology
Appendix 3


                                     PRIOR REPORTS

  •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2012
      (DOE/IG-0877, November 2012). The review identified weaknesses with access
      controls, vulnerability management, integrity of web applications, planning for continuity
      of operations and change control management. The weaknesses identified occurred, in
      part, because Department of Energy (Department) elements had not ensured that cyber
      security requirements were fully developed and implemented. In addition, programs and
      sites had not always effectively monitored performance to ensure that appropriate
      controls were in place. Without improvements to its unclassified cyber security program,
      including implementation of effective continuous monitoring practices and adopting
      processes to ensure security controls are in place and operating as intended, there is an
      increased risk of compromise and/or loss, modification and non-availability of the
      Department's systems and the information.

  •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2011
      (DOE/IG-0856, October 2011). The review noted that the number of weaknesses
      identified represented a 60 percent increase over the previous year, and although some
      action had been taken, there was still additional action needed to further strengthen the
      Department's cyber security program. Specifically, the review revealed weaknesses in
      the areas of access controls, vulnerability management, web application integrity,
      contingency planning, change control management and cyber security training. The
      weaknesses identified occurred, at least in part, because Department elements had not
      ensured that cyber security requirements included all necessary elements and were
      properly implemented. Program elements also did not always utilize effective
      performance monitoring activities to ensure that appropriate security controls were in
      place. Without improvements to its unclassified cyber security program, such as
      consistent risk management practices and adopting processes to ensure security controls
      are appropriately developed, implemented and monitored, there is an increased risk of
      compromise and/or loss, modification, and non-availability of the Department's systems
      and information.

  •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2010
      (DOE/IG-0843, October 2010). The review noted that although some action had been
      taken, there was still additional action needed to further strengthen the Department's
      cyber security program. Specifically, the review revealed weaknesses in the areas of
      access controls, configuration and vulnerability management, web application integrity,
      and security planning and testing. The weaknesses identified occurred, at least in part,
      because Department elements had not always ensured that cyber security requirements
      were effectively implemented, not had they adequately monitored cyber security
      performance. Plans of action and milestones were also not always used effectively to
      ensure that known security vulnerabilities were properly remediated. Without
      improvements to its cyber security program, Department systems and the information
      they contain are exposed to a higher than necessary level of risk.



Page 13                                                                          Prior Reports
Appendix 3 (continued)


     •    Audit Report on Protection of the Department of Energy's Unclassified Sensitive
          Electronic Information (DOE/IG-0818, August 2009). The review identified that
          some sensitive information at various sites was not encrypted, which included both
          stored and transmitted information, hardware was not properly secured, and programs
          and sites were still working to complete required Privacy Impact Assessments. These
          weaknesses were attributable in part due to Headquarters programs and field sites that
          had not implemented existing policies and procedures requiring protection of
          sensitive electronic information. In addition, a lack of performance monitoring
          contributed to the inability to ensure that measures were in place to fully protect
          sensitive information. While some steps have been taken to address these identified
          weaknesses, additional effort is needed to help ensure that the privacy of individuals
          is adequately protected and that sensitive operational data is not compromised.




Page 14                                                                          Prior Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 15                            Management Comments
Appendix 4 (continued)

                                         Attachment A

                             MANAGEMENT RESPONSE
                       Inspector General's Draft Special Report on
                The Department of Energy's July 2013 Cyber Security Breach

Recommendation 1: Complete additional forensics reviews, as appropriate, to identify all types
of data compromised and notify affected employees, dependents and contractors of compromised
data in a timely manner in accordance with applicable laws and regulations.

Management Response: Concur

The Offices of the Chief Information Officer (OCIO) and the Chief Financial Officer (OCFO)
have completed additional forensic reviews. In accordance with the Office of Management and
Budget's (OMB) Memorandum M-07-16 and DOE Order 206.1 for source, content, method and
target for notifying affected personnel, notifications have been completed for over 99% of the
affected individuals. The OCIO has continued to exhaust all means of outreach to affected
personnel, including but not limited to:

   •   Posting alerts and notices on internally and externally facing Energy web sites
   •   Generating log-in alerts
   •   Communicating directly with all internal and external organizations having affected
       personnel
   •   Providing a dedicated call center with a toll free number
   •   Leveraging commercial search services

The OCIO continues to work with other organizations, including government agencies and
commercial search firms, to locate accurate contact information in order to notify the remaining
less than 1% of the affected personnel.

Recommendation 2: Identify all externally facing systems, determine if the continued external
access is necessary, and remove access if not deemed essential.

Management Response: Concur

The OCIO has been working with the Office of Health, Safety and Security (HSS) to complete a
full assessment of all Internet facing systems on the DOE Trusted Internet Connection (TIC),
with the goal of a near real-time understanding of vulnerabilities present on TIC systems.

The OCIO has engaged the Department of Homeland Security (DHS) to conduct scans of the
entire DOE Internet Protocol (IP) space for vulnerabilities. DHS has a major program designed


Page 16                                                              Management Comments
Appendix 4 (continued)

to scan large network blocks for web application and other vulnerabilities. DHS has already
scanned for specific vulnerabilities related to Content Management System vulnerabilities and
provided reports on DOE's sites with vulnerable systems. The OCIO is following up with
Program and Staff Offices (PSOs) regarding the results of DHS scans.

Recommendation 3: Implement an effective continuous monitoring program, to include the
performance of periodic in-depth authenticated reviews of each system, especially those that are
externally-facing.

Management Response: Concur

DOE is integrating continuous monitoring into its department-wide cybersecurity strategy. DOE
is participating in DHS's Continuous Diagnostics and Mitigation (CDM) Program and is an
"early engager" within the program, with plans to expand the program broadly across DOE in FY
2014. DOE elements report progress toward continuous monitoring goals through the
Department's Business Quarterly Report (BQR) process. Additionally, the CIO is drafting
implementation direction and guidance to achieve White House Cybersecurity Cross Agency
Priority Goals. This direction and guidance will be reiviewed by the Cyber Council and issued by
the Deputy Secretary.

The OCIO and OCFO have also requested HSS to conduct initial and periodic authenticated scans of
DOEInfo and its connected services and applications. Improvements to the real-time protection and
continuous monitoring of DOEInfo and the underlying infrastructure are being implemented by the
OCIO.

Recommendation 4: Reconfigure the DOEInfo database tables to remove unnecessary or
outdated information, remove social security numbers (SSNs) where possible, and protect those
remaining SSNs through the use of encryption or other security protocols as appropriate and in
conjunction with Federal requirements.

Management Response: Concur

The OCIO and OCFO are partnering to conduct a detailed review of all services and applications
with connections to DOEInfo. This review will include an evaluation and validation of the need
for the collection and retention of employee data. The review will include an assessment of the
security associated with the application or service connection to DOEInfo, as well as the security
associated with the connected service and/or application itself. The review will also include an
assessment of record retention requirements and the separation of historical records from active
data.

Phase 1 will be completed by the end of January 2014 and involves the removal of all
unnecessary or outdated information and removal of SSNs, where possible. Phase 2 will be
completed by the end of May 2014 and will protect remaining SSNs through the use of



Page 17                                                              Management Comments
Appendix 4 (continued)

encryption or other security protocols as appropriate and in conjunction with Federal
requirements. OCFO has already made several improvements to DOEInfo since the event:

   •   Changed all user and database connection passwords (August 20, 2013)
   •   Encypted DOEInfo password table at rest (September 4, 2013)
   •   Forced DOEInfo password change on-line (September 4, 2013)
   •   Removed bad password strings from being stored. Storing only the date and time of the
       failure (September 17, 2013)
   •   Updated official leave forms to include digital signature capability and collect only the
       last four digits of the employee's SSN. The only affected page is the leave donation
       report used by DOE Payroll Office. Added a new ESS Admin role for leave donation so
       only the Payroll Office will see the ESS leave donation functions (September 19, 2013)
   •   Activated database auditing for all DOEInfo users coming in through the DOE Intranet
       and via tools such as Microsoft Access (October 1, 2013)
   •   Archived or deleted 152 tables that contained SSNs from the DOEInfo database
       (October 25, 2013)

Recommendation 5: Clarify the authorities and responsibilities of the OCFO and the OCIO as
they pertain to the ownership and management of the impacted systems.

Management Response: Concur

Authorities and responsibilities of the OCFO and the OCIO as they pertain to the ownership and
management of impacted systems will be formally documented by December 31, 2013.

Recommendation 6: Develop an effective risk management approach that properly identifies
weaknesses and costs of mitigation, to allow senior management officials to effectively apply
limited resources to minimize future events.

Management Response: Concur

Line managers are responsible for the effective risk management of systems under their authority
and purview. Within the OCIO, the CIO has rescinded the delegation of system authorization
and implemented weekly reviews of system risks under the line management authority of the
CIO. These weekly reviews include discussion of inherited or transferred risks associated with
hosting, housing and interconnect agreements. The OCIO will work with PSOs and HSS to
coordinate insight and oversight of risk management. In addition, the DOE Cyber Council has
tasked a working group within DOE to review management and technical best practices and to
develop recommendations for propagating best practices across the DOE enterprise.

Recommendation 7: Develop a process and central authority responsible for shutting down
compromised or significantly vulnerable systems, at least on a temporary basis, to ensure
minimal disclosure of national security, personally identifiable and other sensitive information.



Page 18                                                               Management Comments
Appendix 4 (continued)

Management Response: Concur

System and application owner/operators are ultimately responsible for the security of their
systems. The OCIO will review and update the Data Center and Systems Services Application
Hosting Environment Memorandum of Agreements and Interconnection System Agreements to
ensure roles and responsibilities are clearly documented by January 31, 2014. In addition, the
authorities and process for identifying significantly vulnerable systems, communicating their
vulnerabilities and status, shutting down or severing connections to these systems, and
reactivating these systems after appropriate actions are taken to reduce or eliminate the risk will
be formally documented by March 31, 2014.

Recommendation 8: Prepare a lessons learned report that can be shared across the complex.

Management Response: Concur

The OCIO and OCFO will prepare a lessons learned report by December 31, 2013.




Page 19                                                                Management Comments
                                                                    IG Report No. DOE/IG-0900

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
